D O E F 13258
  (8-89)
EFCi (07-90)


United States Government                                                                   Department of Energy


memorandum
            DATE.     May 6, 2009
       =PLY     TO
        ATIT    OF.   IG-40
        SUBJECT       Letter Report on "Selected Aspects of the Department of Energy's Activities Involving
                      the Foreign Intelligence Surveillance Act," INS-L-09-05 (S09IS0 14)
                TO.   Director, Office of Intelligence and Counterintelligence

                      This report provides the results of our review of selected aspects of the Foreign
                      Intelligence Surveillance Act activities of the Department of Energy's Office of
                      Intelligence and Counterintelligence.

                      BACKGROUND

                      In conjunction with the Department of Energy's (DOE'S) role as part of the U.S.
                      intelligence community, the Office of Intelligence and Counterintelligence (IN) provides
                      technical intelligence analyses on all aspects of foreign nuclear weapons, nuclear
                      materials, and energy issues. IN has played an increasingly significant role in a number
                      of intelligence related areas, such as counter-proliferation, counterintelligence, cyber
                      security, and combating nuclear terrorism.

                      The Foreign Intelligence Surveillance Act (FISA) of 1978, as amended on July 10, 2008,
                      placed certain review requirements on the Inspectors General of each element of the
                      intelligence community authorized to acquire foreign intelligence information by
                      targeting certain persons outside of the U.S. We determined that, in fact, DOE is not
                      authorized to acquire foreign intelligence information by targeting certain persons outside
                      of the U.S. However, DOE does provide analytical support to the Federal Bureau of
                      Investigation (FBI), Department of Justice, with respect to its FISA collection activities.
                      Specifically, in accordance with Executive Order 12333, "United States Intelligence
                      Activities," as amended by Executive Order 13470, IN is authorized to: (1) collect
                      overtly, analyze, produce, and disseminate information, intelligence, and
                      counterintelligence to support national and departmental missions; and (2) provide expert
                      scientific; technical, analytic, and research capabilities to other agencies within the
                      intelligence community, as appropriate.

                      We initiated an inspection of selected aspects of IN'S FISA support activities. Our field
                      work included interviews with several Headquarters intelligence and counterintelligeilce
                      officers and managers who had corporate knowledge of intelligence activities throughout
                      the Department, as well as employees of the FBI, the Department of Justice, and the
                      Central Intelligence Agency. We reviewed the four cases IN identified as having been
                      referred by the FBI for analysis of raw data collected under FISA court crders, as well as
                      applicable IN policies and procedures.
RESULTS OF INSPECTION

Our inspection did not disclose any evidence that IN handled FISA-related casework in a
manner that was inconsistent with FISA. IN officials advised us that IN had not
conducted physical or electronic surveillance and had not disseminated any reports to the
intelligence community containing a reference to a U.S. person's identity when the U.S.
person was not the subject of investigation, all of which are prohibited under FISA. We
were also advised that IN had not maintained any file of raw, non-minimized data
collected by the FBI after completion of its aqalysls. No evidence cage to our attention
that contradicted these assertions by responsible IN officials.

We did find, llowever, that one of the four FISA cases the FBI referred for analysis was
not completed in a timely manner and IN management was not aware of this situation.
We also found that IN did not have written procedures for processing FISA cases and
lacked any IN-wide process for tracking and following up on FISA cases. This likely
was at least a contributing factor to management not being aware that IN's analysis of the
a b w e case was not handled ir, a timely ma.mer.

Timelv Case Analysis

On August 29, 2007, FBI officials inet with officials in the Counterintelligence
Directorate (IN-20) and requested the above cited case analysis. On October 17. 2007,
IN-20 forwarded the materials to an analyst in the Intelligence Directorate (IN-1 0) for
analysis. On February 27, 2008, IN-10 provided the FBI some preliminary review
information. On June 25. 2008, an IN-20 status check revealed that no further action had
been taken. During our field work, the IN-10 analyst who was assigned the work stated
that a full analysis was not completed because he had priority work to complete and the
FISA work had lesser priority. He also indicated that he had provided the FBI some
"pointers" regarding the case. IN did not complete its analysis of the FISA case untii
January 22, 2009, almost 17 months after the FBI transmitted relevant material to DOE
and 1 '/ months after we brought to IN's attention the delay in responding to the FBI.

The FBI official who requested that IN conduct the analysis of the FISA case informed us
that the case was important to national security and that he had expected IN would
complete its analysis in less than a year. He acknowledged, however. that he did not
provide IN with a deadline for completion of the work and did not make an). status
checks with IN during the period that it \.:as pending.

Written Procedures

We brought the timeliness issue to the attention of an IN- i 0 senior officiai. The officiai
stated that he recalled being briefed on the case when it was referred to IN-I 0 by IN-20,
but he was unaware that IN-10's analysis was not completed. He indicated that, once his
-.office accepted the assignment. it was obliged to complete the work in a timely manner.
  I he official stated that most FiSA-relared work is referred to his ol'fi'l7ct: horn IN-20
through an informal process. He indicated that, in the particular case at issue, IN-20
should have expressed its expectations regarding a completion date for IN-1 0's analysis.
He also stated, however, that if the IN-10 analyst assigned the case was unable to
complete the work within 90 days, the analyst should have informed senior management
of the situation, so the work could be reassigned. The official indicated that IN- 10 does
not have a "tickler system" to track items such as FISA assignments or special access
program assignments. He said that IN'S Computerized Action Traclung System, used for
tracking projects, was unsuitable to track FISA or special access program assignments
because they are handled through special sensitive channels.

We also discussed this matter with an IN-20 senior officiai, who acknowiedged that he
had not paid attention to periodic status checks that were made by his staff. The IN-20
official stated that, after learning from his staff that the IN-20 Procedures Guide, dated
December 2 1,2004, only required status checks every 120 days, he decided that these
status checks should be run every 90 days. IN has informed us that this change was
incorporated into a revision of the Procedures Guide.

We are not making any formal recommendations to management; however, we suggest
that the Director, Office of Intelligence and Counterinteliigence, deveiops m-wide
written procedures for processing FISA case requests. These procedures should include
protocols to ensure an IN-wide process for tracking and following up on FISA cases.




                                       Elise M. ~ n n k
                                       Assistant Inspector General
                                         for Inspections

Attachment

cc:     Chief of Staff
        Director, Office of Internal Review (CF-1.2)
